                                        v                                         V


                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM


  I   Case Number: I08040026                                                                     Page 1 of 1



             This investigationwas of an award1made to an organization2under the direction of a PI^ as the result
             of a pro-active review4. This award5was transferred from another organization6with the remaining
             funds7being transferred also.

             This organization8 requested a no cost extension9 and proposed to expend a majority10 of the
             remaining funds" to purchase specialized equipment. OIG reviewed the documentation and
             determined the final funds were used to fund the salary of the ~ 1 ' OIG
                                                                                  ~ . did not identify any false
             statements or any evidence the funds expended were inappropriate to the goals of the research.

             Accordingly, this case is closed.




11'
  NSF OIG Form 2 (1 1/02)
